ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
455 GOLDEN GATE AVENUE, SUITE 11000
SAN FRANCISCO, CA 94102-7004

Public: (415) 510-4400
Telephone: (415) 510-3821
Facsimile: (415) 703-1234
E-Mail: Alice.Lustre@doj.ca.gov

September 30, 2021
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, NE
Washington, DC 20543
RE:

Ramirez v. California, No. 21-5711
Request for Extension of Time to File Response

Dear Mr. Harris:
I represent the respondent in the above-captioned capital case. The petition for a writ of
certiorari in this case was filed on September 13, 2021, and docketed on September 20, 2021.
The state’s response is due by October 20, 2021. We have reviewed the petition and begun
researching the response. However, we require additional time to complete the response and to
undergo the necessary internal review before our response is filed. For these reasons, we
respectfully request an extension of the time in which to file the response to November 19, 2021,
which would be 30 days from the original due date.

Sincerely,
/s/ Alice B. Lustre
ALICE B. LUSTRE
Supervising Deputy Attorney General
State Bar No. 241994
For
ABL:
SF2021401850
42891950.docx

ROB BONTA
Attorney General

DECLARATION OF SERVICE BY E-MAIL and U.S. Mail
Case Name:
No.:

Ramirez, Irving Alexander v. State of California
21-5711

I declare:
I am employed in the Office of the Attorney General, which is the office of a member of the
California State Bar, at which member's direction this service is made. I am 18 years of age or
older and not a party to this matter. I am familiar with the business practice at the Office of the
Attorney General for collection and processing of correspondence for mailing with the United
States Postal Service. In accordance with that practice, correspondence placed in the internal
mail collection system at the Office of the Attorney General is deposited with the United States
Postal Service with postage thereon fully prepaid that same day in the ordinary course of
business.
On September 30, 2021, I served the attached REQUEST FOR EXTENSION OF TIME TO
FILE RESPONSE by transmitting a true copy via electronic mail. In addition, I placed a true
copy thereof enclosed in a sealed envelope, in the internal mail system of the Office of the
Attorney General, addressed as follows:
Maria Morga
Office of the State Public Defender
1111 broadway, Suite 1000
Oakland, CA 94607
Maria.Morga@ospd.ca.gov
I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on September
30, 2021, at San Francisco, California.
N. Bui
Declarant
SF2021401850

42893236.docx

/s/ N. Bui
Signature

